SCOPE

      We reviewed the Occupational Safety and Health Act of 1970; Executive
Order 12196, Occupational Safety and Health Programs for Federal Employees;
Federal Regulations; and information provided by OSHA. We also reviewed
Agency policies and procedures including the NLRB Administrative Policies and
Procedures Manual; Administrative Bulletin (AB) 94-54, Federal Hazard
Communication Program; AB 03-08, Automated External Defibrillation
Program Available in the Headquarters Health Unit; and the Health and Safety
Section’s desk manual.

       We reviewed actions taken by the Agency including annual inspections
during FY 2004, record keeping and external reporting, and whether safety
related information was displayed throughout the Agency. We used these
inspections to identify actions needing abatement and to determine whether
Field Office personnel received necessary first aid and CPR training. We
interviewed members of Procurement and Facilities Branch (PFB), Finance
Branch, Budget Branch, and the Office of Employee Development (OED), and
we reviewed the Occupant Emergency Programs (Programs) and the NLRB
union contracts to identify and gain an understanding of the Agency's safety
program. We reviewed the Security Survey/Risk Assessment Report performed
by the Federal Protective Service to identify Agency needs. We reviewed safety
related expenditures to determine whether identified needs were satisfied.

      We conducted this review from August through October 2004. This
review was done in accordance with the Quality Standards for Inspections
issued by the President's Council on Integrity and Efficiency.


BACKGROUND

       The NLRB is required by Executive Order and the Occupational Safety
and Health Act to provide safe and healthful working conditions for all workers.
The Director of Administration is the Agency Occupational Safety and Health
Official and is responsible for the overall administration of the NLRB Safety and
Health Program. The PFB Chief is responsible for the operation of the Agency
Occupational Safety and Health Program.

       Annual inspections are conducted at Headquarters and each Field Office.
Headquarters inspections are conducted by PFB employees and, if requested, a
union representative. Field Office inspections are conducted by the Regional
Director, Office Manager, or Safety Designee in consultation with the local
union representative. The Field Offices include 32 Regional Offices, 3
Subregional Offices, 16 Resident Offices, and 3 Division of Judges satellite
offices. The Washington, DC Resident Office is located at and reviewed with

                                        2
Headquarters. Field Office inspection reports are forwarded to the Safety
Specialist who works with the offices to abate identified hazards.

      As part of the safety and health program, the Agency developed OEPs,
which are procedures to protect life and property in Federally occupied space
under defined emergency conditions. Separate OEPs are prepared for
Headquarters and each Field Office. The OEPs include Emergency
Coordinators that are employees with ancillary safety duties. They are required
to obtain first aid and CPR training.


RESULTS

Spending for Safety Supplies

       The Agency spent $26,301 for safety related supplies and services in FY
2004. This included services such as asbestos testing in identified Field
Offices, National Safety Council Membership, fire extinguisher servicing, and
wheelchair repairs identified during the annual inspection of the Health Unit.
Supplies purchased included flashlights, first aid kits, and reflective armbands
to assist employees in emergencies. In addition, the OED provided CPR and
first aid training for all Emergency Coordinators at Headquarters at a cost of
$2,035. Automated External Defibrillators are provided by the Department of
Health and Human Services (HHS) and not charged directly to the Agency.

      The PFB identifies safety requirements by reviewing the information
provided by OSHA and the National Safety Council and conducting annual
safety inspections to identify Agency safety needs. We reviewed safety related
regulations and expenditures and did not identify additional safety related
requirements necessary for Agency compliance. The PFB stated that safety
related expenditures are always given top priority and could not recall an
example where any expenditure was denied.

      Currently, defibrillators are located in all Agency Field Offices that are
located in a Federal Building that have a health unit. In addition,
Headquarters has a defibrillator located in the Health Unit. The defibrillators
and training of Health Unit personnel were provided by HHS. One of the
Agency’s initiatives, as reported to the U.S. Department of Labor, is to pursue
with HHS in getting defibrillators in all Agency office locations.




                                        3
CPR and First Aid Certification

       Forty-nine percent of Field Offices did not have current CPR training and
47 percent did not have first aid training needed for compliance with the OEPs.
The Health and Safety Section’s desk manual states that the safety staff has
the responsibility to establish procedures in order that Agency personnel can
respond to such conditions as fire, bomb threat, building evacuation, natural
disaster, or medical emergency. These procedures are detailed in the OEPs.
The Field Office OEPs require that Emergency Coordinators seek or have first
aid training and/or emergency training in administering CPR. Without current
certification, offices are unable to comply with their OEPs.


                           CPR Certification in the Field

                                        Field Offices    Percentage
          Did not receive training           26              49
          Received training                  22              42
          No inspection report                5               9
             Total                           53             100


                        First Aid Certification in the Field

                                        Field Offices    Percentage
          Did not receive training           25              47
          Received training                  23              44
          No inspection report                5               9
             Total                           53             100

       The PFB has initiated action to monitor CPR and first aid training in
Field Offices. On April 19, 2004 PFB sent a memo to all Regional Directors and
Office Managers requesting that they identify a Safety and Health Designee
whose duties would include ensuring that Emergency Coordinators in each
office receive and maintain current certifications in first aid and CPR. On
September 24, 2004, the PFB sent a survey to the Field Offices requesting
training information for their Emergency Coordinators. Because they received
limited responses, PFB issued a reminder notice on October 14, 2004.

Advisory Committee on Health and Safety

      No Advisory Committee meetings were held in FY 2004. According to
NLRB Union contracts, an Advisory Committee on Health and Safety that
consists of management and union representatives will be established and will
meet on a semi-annual basis. The last meeting was held in June 2003 and the

                                       4
next meeting is scheduled for October 27, 2004. The PFB and a union
representative stated that no meetings were held in FY 2004 due to budgetary
constraints. Management proposed meeting in a video conference, but the
union committee representative preferred to meet face-to-face.

Safety Committee Postings

       The Agency’s Occupational Safety and Health Protection for National
Labor Relations Board Employees posters were located in appropriate
Headquarters locations, but did not include information regarding the safety
and health committee required by the Federal Regulations. In response to our
draft report, management developed a revised poster with the required
information that is currently under review.


SUGGESTIONS

We suggest that the Procurement and Facilities Branch Chief:

  1. Ensure that Field Office Emergency Coordinators obtain CPR and first
     aid training.

  2. Finalize the revised Occupational Safety and Health Protection for
     National Labor Relations Board Employees poster.




                                      5
